Semiannual Report 

      to Congress 





Federal Election Commission 

         Office of the 

      Inspector General 



   999 E Street, N.W., Suite 940
     Washington, DC 20463



April 1, 2007 – September 30, 2007


       November 2007 

                         FEDERAL ELECTION COMMISSION
                         WASHINGTON, D.C. 20.63


                                                          November 20,2007
OFFICE OF THE CHAIRMAN




      The Honorable Nancy Pelosi
      Speaker of the House of Representatives
      Washington, D.C. 205 15-6501

      Dear Madam Speaker:

              Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
      Commission submits the Inspector General's Semiannual Report to Congress, which
      summarizes the activity of that office over the six-month period April 1,2007 through
      September 30,2007. During this reporting period the FEC's Inspector General
      commenced an audit of the FEC's fiscal year 2007 financial statements. The audit was
      completed on time and management issued the final Performance and Accountability
      Report on November 15,2007. We are pleased to report that the Commission received
      an unqualified opinion fi-om its outside auditors. We will provide additional comments
      on this audit in the next Semiannual Report to Congress.

               Further, pursuant to Section 522 of the Consolidated Appropriations Act, 2005
      (Pub. L. 108-447), the Inspector General contracted with an independent third party to
      review the agency's use of information in an identifiable form, and the agency's privacy
      and data protection polices. The privacy audit is currently underway. We anticipate that
      it will provide a baseline that will assist management in working with the IG and with
      other stakeholders to improve the agency's privacy and data protection management.

             The Commission appreciates and shares the Inspector General's commitment to
      sound financial and management practices, and we anticipate a continued cooperative
      working relationship as management takes appropriate measures to improve operations of
      the Commission. Copies of this semiannual report are being provided to the Chairman
      and Ranking Members of FEC's oversight committees.

                                                          Sincerely,



                                                          Robert D. Lenhard
                                                          Chairman

      Enclosure
                       MANAGEMENT REPORT ON FINAL ACTION 

            ON AUDITS WITH RECOMMENDATION TO PUT FUNDS TO BETTER USE 

                FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30,2007 




                                                      Number of       Funds to be Put
                                                      Audit Reports   to Better Use

A. Audit reports for which no management
   decision has been made by the commencement
   of the reporting period                                 0                0


Bi Audit reports issued during the reporting period


C. Audit Reports for which a management decision
   was made during the reporting period


   (i) dollar value of recommendations that were 

       agreed to by management 


    - based on proposed management action
    - based on proposed legislative action


   (ii) dollar value of recommendations that were 

        not agreed to by management 



D. Audit Reports for which no management decision
   has been made by the end of the reporting period


E. Audit Reports for which no management decision
   was made within six months of issuance
                         MANAGEMENT REPORT ON FINAL ACTION 

                            ON AUDITS WITH QUESTIONED COSTS 

                   FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30,2007 




                                                      Number of       Questioned   Unsupported
                                                      Audit Reports      Costs         Costs
A. Audit reports for which no management
   decision has been made by commencement
   of the reporting period                                 0               0             [ol


B. Audit reports issued during the reporting period        0               0             [ol


   Subtotals (A + B)                                       0               0             [01


C. Audit Reports for which a management decision
   was made during the reporting period                    0


   (i) dollar value of disallowed costs


   (ii) dollar value of costs not disallowed               0


D. Audit Reports for which no management decision
   has been made by the end of the reporting period        0


E. Audit Reports for which no management decision
   was made within six months of issuance                  0
                FEDERAL ELECTION COMMISSION
               WASHINGTON, D.C. 20463




                     A Message from the Inspector General

This report summarizes the work completed by the Office of Inspector General (OIG) for 

the semiannual reporting period April 1,2007 - September 30,2007. 


During this reporting period, Congress has taken steps towards amending the Inspector 

General Act, an effort that has been ongoing for sometime. The House passed H.R. 928, 

a bill that enhances the independence of Inspectors General, establishes the Council of 

the Inspectors General on Integrity and Efficiency, and addresses the pay and bonuses of 

IGs, among other issues. The Senate appears to be moving forward on a similar bill. 

I am glad to see steps taken to address these issues. 


This has also been a very active time for the OIG with the start of the 2007 Financial 

Statement Audit, the Audit of the FEC7sPrivacy Practices, and the peer review of another 

Office of Inspector General. We have also been active in the IG community, and have 

provided comments to the FEC on several issues. 


I am still concerned about the current lack of additional resources, but the Federal 

Election Commission's fiscal year 2009 budget contains a request for two additional staff 

positions for the OIG. These positions are critical to the oflice and our ability to meet all 

of our responsibilities, and I am hopeful the agency's budget will be approved with the 

requested resources. 


All staff continue to work at maximum capacity to accomplish the work of the OIG. I 

would like to thank the staff for their continued commitment and the level of 

professionalism and effort that goes into their work. 





~ ~ nA.i McFarland
           e 

Inspector General
Federal Election Commission


October 3 1,2007
                   TABLE OF CONTENTS

EXECUTIVE SUMMARY---------------------------------------------------------                1

THE FEDERAL ELECTION COMMISSION-------------------------------                            4

OIG AUDIT ACTIVITY------------------------------------------------------------            5

OIG HOTLINE COMPLAINTS-------------------------------------------------                   9

OIG INVESTIGATIONS----------------------------------------------------------              9

ADDITIONAL OIG ACTIVITY-------------------------------------------------                 10

ECIE AND PCIE ACTIVITY----------------------------------------------------               12

REPORTING REQUIREMENTS----------------------------------------------                     15

TABLE I - QUESTIONED COSTS--------------------------------------------                   16

TABLE II - FUNDS PUT TO BETTER USE-------------------------------                        17

TABLE III - SUMMARY OF AUDIT REPORTS WITH
            CORRECTIVE ACTIONS OUTSTANDING
            FOR MORE THAN SIX MONTHS--------------------------                           18

FEC/OIG STRATEGIC PLAN – FY 2005-2010----------------------------                        19

OIG CONTACTS--------------------------------------------------------------------         20

LIST OF TRAINING, MEETINGS, AND CONFERENCES
ATTENDED BY OIG STAFF----------------------------------------------------                21

CONTACTING THE OFFICE OF INSPECTOR GENERAL---------                                      22




________________________________________________________________________
FEC/OIG – Semiannual Report to Congress                          April 1, 2007 – September 30, 2007
Executive Summary

The Inspector General Act of 1978, as amended, states that the Inspector General is
responsible for conducting audits, inspections, investigations, and recommending policies
and procedures that promote economic, efficient, and effective use of agency resources and
programs that prevent fraud, waste, abuse and mismanagement. The IG act also requires
the Inspector General to keep the Commission and Congress fully and currently informed
about problems and deficiencies in the Commission’s operations and the need for
corrective action.


This semiannual report includes the major accomplishments of the Office of Inspector
General, as well as relevant information regarding additional OIG activities. The executive
summary highlights the most significant activities of the OIG. Additional details pertaining
to each activity can be found in subsequent sections of this report.


        The Audit of the FEC’s Fiscal Year 2007 Financial Statements – OIG-07-01
        commenced during this reporting period. Under a contract monitored by the OIG,
        Clifton Gunderson LLP (CG-LLP), an independent certified public accounting firm,
        is performing the audit of the FEC’s FY 2007 financial statements. The OIG is
        responsible for the financial statement audit and oversight of the contract auditors.
        This includes: 1) reviewing the auditors’ approach and planning of the audit; 2)
        evaluating the qualifications and independence of the auditors; 3) monitoring the
        work of the auditors; 4) examining audit documents and reports to ensure
        compliance with Government Auditing Standards, and OMB Bulletin No. 07-04
        Audit Requirements for Federal Financial Statements; and 5) other procedures the
        OIG deems necessary to oversee the contract and audit.


        During the entrance conference management, the OIG, and CG-LLP discussed the
        audit scope and ways to ensure an efficient and effective audit process for fiscal
        year 2007. A timeline was established for the audit, along with requests to
        management for necessary documentation and information concerning the financial

__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 1                April 1, 2007 – September 30, 2007
        statements (for more information see the section entitled OIG Audit Activity
        located on page 5).


        The Audit of the FEC’s Privacy Practices – OIG - 07-02 was also initiated during
        this reporting period. The Audit of the FEC’s Privacy Practices is required as a
        result of a law signed by the President on December 8, 2004, titled the Consolidated
        Appropriations Act, 2005 (Public Law 108-447). Section 522 (d) (3) of the law
        requires the Inspector General to contract with an independent third party privacy
        professional to evaluate the agency’s use of information in an identifiable form, and
        the privacy and data protection procedures of the agency.


        The OIG began plans to conduct an independent review of the FEC’s
        implementation of privacy controls. The independent review is to include (a) an
        evaluation of the agency’s use of information in identifiable form, (b) an evaluation
        of the agency’s privacy and data protection procedures, and (c) recommendations
        on strategies and specific steps to improve privacy and data protection management.
        In preparation for the contract to hire an independent, third party privacy
        professional to conduct the audit, the OIG developed and issued a statement of
        work (SOW) and awarded the contract to Cotton & Company LLP, an independent
        public accounting firm (for more information see the section entitled OIG Audit
        Activity located on page 7).


        Prior to the end of this reporting period, the OIG had one investigation currently
        underway, and ten hotline complaints (for more information see the section
        entitled OIG Hotline Complaints located on page 9).


        Also during this reporting period, the OIG conducted an audit recommendations
        resolution of the Audit of the FEC’s Employee Transit Benefit Program – OIG-06
        01, released February, 2007. The purpose of audit resolution is to ensure
        management’s action plan will address the weaknesses found during the audit. The
        OIG concluded that management implemented three of the twenty-five


__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 2                April 1, 2007 – September 30, 2007
        recommendations contained in the 2007 audit report (for more information see the
        section entitled Additional OIG Activity starting on page 10).


        Additional information pertaining to the activities listed below can be found in the
        section entitled ECIE and PCIE Activity starting on page 12):


        Audit organizations conducting audits in accordance with GAGAS are required to
        have an independent peer review every three years. A schedule detailing peer
        review responsibilities between OIGs of ECIE agencies is disseminated annually.
        The FEC OIG is conducting the peer review of the Federal Finance Housing Board
        (FHFB). The objective of the peer review is to ensure an audit organization’s
        internal quality control system adequately provides reasonable assurance that
        applicable auditing standards, policies, and procedures are met (see page 13).


        The Inspector General is an active member of the Executive Council on Integrity
        and Efficiency and has provided input on a number of initiatives proposed by the
        Council. The IG attends regular meetings held by the ECIE, and the IG also
        participates in joint meetings and activities with the President’s Council on Integrity
        and Efficiency.


        During this past reporting period, the Inspector General was elected to the
        Executive Council of the PCIE/ECIE. The Executive Council is chaired by the
        Deputy Director of OMB for Management. The Vice Chair of the PCIE, the Vice
        Chair of the ECIE, the Chairs of the PCIE committees, and one elected member
        from the ECIE comprise the Council. The Executive Council meets quarterly and
        discusses issues that affect the IG community as a whole (see page 12).




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 3                April 1, 2007 – September 30, 2007
the federal election commission l
In 1975, Congress created the Federal Election Commission (FEC) to administer and
enforce the Federal Election Campaign Act (FECA). The duties of the FEC, an
independent regulatory agency, are to disclose campaign finance information; enforce the
provisions of the law; and oversee the public funding of Presidential elections.



The Commission is made up of six members, who are appointed by the President and
confirmed by the Senate. At present there are five members - the current Chairman and
Vice Chairman of the Federal Election Commission are Robert D. Lenhard and David M.
Mason respectively. The remaining three Commissioners are Hans A. von Spakovsky,
Steven T. Walther, and Ellen L. Weintraub. Each member serves a six-year term, and two
seats are subject to appointment every two years. By law, no more than three
Commissioners can be members of the same political party, and at least four votes are
required for any official Commission action. The Chairmanship of the Commission rotates
among the members each year, with no member serving as Chairman more than once
during his or her term.




Office of Inspector General l

The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988, states that the
Inspector General is responsible for: 1) conducting and supervising audits and
investigations relating to the Federal Election Commission’s programs and operations; 2)
detecting and preventing fraud, waste, and abuse of agency programs and operations while
providing leadership and coordination; 3) recommending policies designed to promote
economy, efficiency, and effectiveness of the establishment; and 4) keeping the
Commission and Congress fully and currently informed about problems and deficiencies in
FEC agency programs and operations, and the need for corrective action.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 4                April 1, 2007 – September 30, 2007
OIG Audit Activity: l

Title: 	                        Audit of the Federal Election Commission’s
                                Fiscal Year 2007 Financial Statements

Assignment Number: 	 OIG – 07-01

Status:          	              In progress

        The Chief Financial Officers Act of 1990 (Public Law 101-576, commonly referred
        to as the “CFO Act”), as amended, requires the FEC Office of Inspector General, or
        an independent external auditor as determined by the Inspector General, to audit the
        agency financial statements. Under a contract monitored by the OIG, Clifton
        Gunderson LLP (CG-LLP), an independent certified public accounting firm, is
        performing the audit of the FEC’s FY 2007 financial statements.

        The OIG is responsible for the financial statement audit and oversight of the
        contract auditors. This includes: 1) reviewing the auditors’ approach and planning
        of the audit; 2) evaluating the qualifications and independence of the auditors; 3)
        monitoring the work of the auditors; 4) examining audit documents and reports to
        ensure compliance with Government Auditing Standards, and OMB Bulletin No.
        07-04 Audit Requirements for Federal Financial Statements; and 5) other
        procedures the OIG deems necessary to oversee the contract and audit.


        The entrance conference was conducted, at which time management, the OIG, and
        Clifton Gunderson, LLP, discussed the audit scope and ways to ensure an efficient
        and effective audit process for fiscal year 2007. A timeline was established for the
        audit, along with requests to management for necessary documentation and
        information concerning the financial statements.


        The OIG coordinated and participated in bi-weekly audit status meetings with CG
        LLP and management to discuss the progress of the audit and areas of concern.


__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 5	               April 1, 2007 – September 30, 2007
        CG-LLP has started providing management with notices of findings and
        recommendations (NFR). The NFRs inform management of potential audit
        findings and allows management the opportunity to respond to the issues before the
        final audit report is released.


        The OIG also attended the SAS 99 fraud awareness meetings held with the OIG’s
        auditors and FEC management. The American Institute of Certified Public
        Accountants (AICPA) Statement on Auditing Standards number 99, Consideration
        of Fraud in a Financial Statement Audit, requires the auditors to gather information
        to identify risks of material financial misstatement due to fraud. One of the
        methods used to gain information about the risk of fraud affecting the financial
        statements, is to conduct SAS 99 fraud awareness meetings and inquire about
        management’s awareness and understanding of fraud risk. SAS 99 meetings were
        conducted with the FEC’s Staff Director, Deputy Staff Director for Management &
        Administration, Budget Officer and Chief Financial Officer.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 6                April 1, 2007 – September 30, 2007
OIG Audit Activity (continued): l

Title:                          Audit of the FEC’s Privacy Practices

Assignment Number:              OIG – 07-02

Status:                         In progress


         The Audit of the FEC’s Privacy Practices is required as a result of a law signed by
         the President on December 8, 2004, titled the Consolidated Appropriations Act,
         2005 (Public Law 108-447). Section 522 (d) (3) of the law requires the Inspector
         General to contract with an independent third party privacy professional to evaluate
         the agency’s use of information in an identifiable form, and the privacy and data
         protection procedures of the agency. The independent review is to include (a) an
         evaluation of the agency’s use of information in identifiable form, (b) an evaluation
         of the agency’s privacy and data protection procedures, and (c) recommendations
         on strategies and specific steps to improve privacy and data protection management.


         Section 522 requires the agency to have an independent third party review at least
         every two years, and requires the Inspector General to submit a detailed report on
         the review to the head of the agency. The independent third party report and related
         Inspector General reports are to be made available to the public, i.e. internet
         availability.


         Prior to the commencement of the audit, the OIG surveyed the PCIE and ECIE
         agencies to determine how many were required to conduct a 522 Privacy review.
         Based on the results, the OIG contacted the affirming agencies to determine who
         performed the review and, where possible, obtained a copy of the statement of work
         or scope, and the resulting report. The results of the survey were compiled and
         provided to all PCIE/ECIE agencies. As a result of the information gained through
         research, direct interviews, and written questions, the OIG developed the statement
         of work.

__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 7                April 1, 2007 – September 30, 2007
        Meetings were held with management to gain an understanding of the extent and
        nature of evidence to support privacy controls were in existence and working
        effectively at the FEC, and whether draft segments of the FEC Privacy Report
        would be finalized before the contractor began fieldwork.




        A formal entrance conference with key FEC personnel responsible for privacy
        activities within the Commission was held. The meeting included representatives
        from the Office of General Counsel, the Information Technology Division, and the
        Human Resources office.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 8                April 1, 2007 – September 30, 2007
OIG hotline Complaints: l

        The Office of Inspector General established a hotline to enable employees and
        others to have direct and confidential contact with the OIG. The OIG receives
        complaints through various means such as U.S. mail, telephone, e-mail, and
        personal visits to the OIG. Once a hotline complaint has been received, a
        preliminary inquiry is conducted. When the inquiry has been completed, the hotline
        complaint can be closed with no further action taken, referred to management for
        action, or closed and an investigation opened on the issue.


        During the reporting period of April 1, 2007 through September 30, 2007, the OIG
        had a total of ten hotline complaints at different stages – eight are pending; two are
        in progress; and three hotline complaints have been closed.




OIG investigations:                              l
        One investigation is currently underway.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 9                April 1, 2007 – September 30, 2007
Additional OIG Activity: l

        Besides conducting audits, inspections, and investigations, the OIG performs, and is
        involved in an array of additional projects and activities. As required by the
        Inspector General Act of 1978, as amended, all legislation compiled by the
        Commission’s Congressional Affairs office is reviewed by the Inspector General.
        The Inspector General also reviews and provides comments, when appropriate, on
        all legislation provided by the PCIE/ECIE Legislative Committee. In addition, the
        Inspector General routinely reads all Commission agenda items. The following are
        examples of the additional activities undertaken by the OIG during the past six
        months:


                The OIG conducted an audit recommendations resolution of the Audit of the
                FEC’s Employee Transit Benefit Program – OIG-06-01, released February,
                2007. The purpose of audit resolution is to ensure management’s action
                plan will address the weaknesses found during the audit. Audit resolution
                was achieved as a result of discussions between the OIG and CFO, and the
                OIG’s review of management’s action plan. In addition, as a result of the
                OIG’s review of action taken by management, the OIG concluded
                management implemented three of the twenty-five recommendations
                contained in the 2007 audit report.


                The OIG plans to conduct an audit follow-up of the remaining outstanding
                recommendations during a future semiannual reporting period. The purpose
                of the audit follow-up will be to determine whether management has
                implemented the audit recommendations, thereby enabling closure of the
                remaining outstanding recommendations.


                The OIG provided comments to the Deputy Staff Director for Management
                & Administration on the draft version of FEC Directive 63 - Delegation of
                Authority for Personnel Actions. The purpose of the directive is to establish

__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 10               April 1, 2007 – September 30, 2007
                general principles, concepts, and policies that govern human resources
                management (HRM) activities and practices within the FEC. These
                requirements constitute the framework for managing employees in an
                efficient and effective manner while ensuring adherence to Federal Human
                Resources (HR) laws, rules, and regulations.


                The OIG reviewed several versions of a draft Breach Notification Response
                Policy & Plan. The FEC developed the Breach Notification Response Plan
                (BNRP) in response to memoranda that the Office of Management and
                Budget (OMB) issued in 2006 and 2007. To mitigate the risk of harm
                (including identity theft) should a data breach occur, the OMB Memoranda
                recommends that agencies establish a core management group and policy to
                respond to the loss of certain categories of sensitive and personal
                information. The OIG provided high-level comments regarding the policy
                impact to the OIG.


                The OIG created, and released to agency employees, an informational
                brochure outlining the duties and responsibilities of the Office of Inspector
                General. Included in the brochure is information on OIG audits and
                evaluations; OIG investigations; employee protection; how to contact the
                OIG; examples of violations of laws or regulations that should be reported
                to the OIG; and how agency employees can continue to assist the OIG with
                combating fraud, waste and abuse within the FEC. An electronic version of
                the brochure is also available on the OIG website.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 11               April 1, 2007 – September 30, 2007
ECIE and PCIE Activity: l

        The President’s Council on Integrity and Efficiency (PCIE) and the Executive
        Council on Integrity and Efficiency (ECIE) were established May 11, 1992 by
        Executive Order 12805, and are chaired by the Office of Management and Budget,
        Deputy Director for Management. In addition to the Inspectors General, the
        councils include representatives from the Office of Personnel and Management, the
        Office of Government Ethics, the Office of Special Counsel, and the Federal
        Bureau of Investigations.


        The PCIE/ECIE have identical functions and responsibilities to coordinate and
        enhance governmental efforts to promote integrity and efficiency, and to detect and
        prevent fraud, waste and abuse in Federal programs. The PCIE is comprised of IGs
        appointed by the President of the United States and confirmed by the Senate. The
        ECIE consists of IGs appointed by the head of their respective agencies.


        The Inspector General is an active member of the Executive Council on Integrity
        and Efficiency and has provided input on a number of initiatives proposed by the
        Council. The IG attends regular meetings held by the ECIE, and the IG also
        participates in joint meetings and activities with the President’s Council on Integrity
        and Efficiency.


        During this past reporting period, the Inspector General was elected to the
        Executive Council of the PCIE/ECIE. The Executive Council is chaired by the
        Deputy Director of OMB for Management. The Vice Chair of the PCIE, the Vice
        Chair of the ECIE, the Chairs of the PCIE committees, and one elected member
        from the ECIE comprise the Council. The Executive Council meets quarterly and
        discusses issues that affect the IG community as a whole.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 12               April 1, 2007 – September 30, 2007
        Audit organizations conducting audits in accordance with GAGAS are required to
        have an independent peer review every three years. A schedule detailing peer
        review responsibilities between OIGs of ECIE agencies is disseminated annually.
        The FEC OIG is conducting the peer review for the Federal Finance Housing Board
        (FHFB). The objective of the peer review is to ensure an audit organization’s
        internal quality control system adequately provides reasonable assurance that
        applicable auditing standards, policies, and procedures are met.


        The Inspector General attended the annual IG-GAO Coordination Meeting with
        Comptroller General of the United States, David Walker. Also in attendance
        representing GAO was the Chief Operating Officer, the Chief Administrative
        Officer, and the General Counsel. The Managing Directors of various GAO
        divisions were also present. Some of the topics discussed included an overview of
        GAO Yellow Book revisions, and IG and GAO coordination.


        The Inspector General, in conjunction with the Department of Agriculture’s
        Inspector General, co-hosted the Annual Inspectors General Conference – Making a
        Positive Difference in a Challenging World. The conference covered a wide range
        of topics including, Ethics, IT Security and Loss of Personally Identifiable
        Information, and Agency Head/IG Relationships. There was also a focus on
        leadership with sessions concerning Dilemma Decision Making, Leadership
        Lessons from the Civil War, and Future Direction for the PCIE/ECIE.


        Clay Johnson, Deputy Director of Management, OMB, conducted a meeting
        involving all of the Councils that he chairs. The PCIE and ECIE were invited to
        attend. Mr. Johnson discussed the importance of transparency and accountability in
        government actions and the importance in making programs work more effectively.


        The OIG attended a Congressional hearing held by a subcommittee of the
        Congressional Committee on Oversight and Government Reform. The hearing
        discussed the independence and accountability of Inspectors General. In addition,

__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 13               April 1, 2007 – September 30, 2007
        the hearing reviewed how Inspectors General in federal departments and agencies
        can maintain independence from political pressure, whether IGs have the resources
        and authority required to fulfill their duties, and how Inspectors General who fail to
        perform with integrity can be held accountable. Also discussed during the hearing
        was H.R. 928, Improving Government Accountability Act, sponsored by
        Representative Jim Cooper.


        The Inspector General, along with the Inspector General of the National Science
        Foundation, attended a meeting with staff members affiliated with Senators Coburn,
        Collins, Lieberman, and McCaskill to discuss pending legislation concerning
        Inspectors General and the affect of such legislation on the ECIE IGs.




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 14               April 1, 2007 – September 30, 2007
                   Reporting Requirements l
Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:

  IG Act                                                                                     Page

Section 4(a)(2)         Review of Legislation-----------------------------------------        10

Section 5(a)(1)         Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------   None

Section 5(a)(2)         Recommendations with Respect to
                        Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------   None

Section 5(a)(3)         Recommendations Included in Previous
                        Reports on Which Corrective Action Has
                        Not Been Completed-(Table III)---------------------------             18

Section 5(a)(4)         Matters Referred to Prosecuting
                        Authorities-------------------------------------------------------   None

Section 5(a)(5)         Summary of Instances Where Information
                        was Refused------------------------------------------------------    None

Section 5(a)(7)         Summary of Significant Reports---------------------------             5

Section 5(a)(8)         Questioned and Unsupported Costs-(Table I)----------                  16

Section 5(a)(9)         Recommendations that Funds be put
                        to Better Use (Table II)----------------------------------------      17

Section 5(a)(10)        Summary of Audit Reports issued before
                        the start of the Reporting Period for which
                        no Management Decision has been made----------------                 N/A

Section 5(a)(11)        Significant revised Management Decisions-------------                N/A

Section 5(a)(12)        Management Decisions with which the
                        Inspector General is in Disagreement----------------------           None




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 15               April 1, 2007 – September 30, 2007
TABLE I:                        1
                   INSPECTOR GENERAL ISSUED REPORTS 

                         WITH QUESTIONED COSTS

                                                          DOLLAR VALUE (in thousands)

                                                         QUESTIONED          UNSUPPORTED
                                           NUMBER          COSTS                COSTS


A. 	 For which no Management                  0                  0                    0
    decision has been made by
    commencement of the reporting
    period


B. 	 Which were issued during                 0                  0                    0
     the reporting period

        Sub-Totals (A&B)                      0                  0	                   0


C. 	 For which a Management                   0                  0                    0
     decision was made during
    the reporting period

        (i) 	 Dollar value of disallowed      0                  0                    0
              costs

        (ii) 	Dollar value of costs           0                  0                    0
              not disallowed


D. 	 For which no Management                  0                  0                    0
    decision has been made by the
    end of the reporting period


E. 	 Reports for which no Management          0                  0                    0
     decision was made within
    six months of issuance




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 16               April 1, 2007 – September 30, 2007
TABLE II:            :
           INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                         NUMBER           DOLLAR VALUE
                                                                           (in thousands)


A. 	    For which no Management                              0                    0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during                             0                    0
        the reporting period

C. 	    For which a Management                               0                    0
        decision was made during
        the reporting period

        (i) 	    dollar value of                             0                    0
                 recommendations
                 were agreed to by
                 Management

                 based on proposed                           0                    0
                 Management action

                 based on proposed                           0                    0
                 legislative action

        (ii) 	   dollar value of                             0                    0
                 recommendations
                 that were not agreed
                 to by Management

D. 	    For which no Management                              0                    0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                                 0                    0
        Management decision
        was made within six months
        of issuance




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 17               April 1, 2007 – September 30, 2007
TABLE III:                     :


    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS 

         OUTSTANDING FOR MORE THAN SIX MONTHS


                         Financial Statement Audits


                                                                Recommendations
                        Report
Fiscal Year             Number           Repeat*         New              Closed          Total

Fiscal Year 2004        OIG-04-01            0             42               12              30

Fiscal Year 2005        OIG-05-01           30             11               15              26

Fiscal Year 2006        OIG-06-02           26             13               10              29



* Repeat column represents recommendations from the prior fiscal year
  report that are still applicable to the current fiscal year report.




                                                                      Recommendations
                                   Report        Issue
Report Title                       Number        Date            Number          Closed Open

Audit of the FEC’s                 OIG-06-01     02/07               25            3        22
Employee Transit
Benefit Program




__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 18               April 1, 2007 – September 30, 2007
                                                          FEC / OIG Strategic Plan - Fiscal Years 2005 - 2010
OIG Products: To provide products                             OIG Process: To develop and implement
                                                                                                                               OIG Staff: To maintain a skilled and motivated
and services that promote positive                            processes, policies, and procedures to ensure
                                                                                                                               work force in an environment that fosters
change in FEC policies, programs, and                         the most effective and appropriate use of OIG
                                                                                                                               accountability, communications, teamwork, and
operations.                                                   resources in support of our people and
                                                                                                                               personal and professional growth.
                                                              products.

Objective A: Deliver timely, high-quality                                                                                      Objective A: Attract and retain well-qualified,
products and services that promote                                                                                             diverse and motivated employees.
positive change.                                                Objective A: Maintain a dynamic strategic
                                                                planning process.                                              Strategy:
                                                                                                                               - develop and implement a comprehensive recruiting program
Strategy:                                                                                                                      that attracts a broad population with the knowledge, skills,
- establish common OIG standards for communicating              Strategy:
                                                                                                                               abilities, and expertise necessary to make meaningful
results;                                                        - periodically review and update the strategic plan to
                                                                                                                               contributions to the OIG;
- conduct quality assurance programs;                           address changing OIG and FEC priorities; and,
                                                                                                                               - assess employee satisfaction and develop strategies to
- solicit appropriate internal and external review and          - identify factors that influence organizational change
                                                                                                                               address employee concerns;
comment;                                                        and develop short and long term plans to address them.
                                                                                                                               - identify reasons for staff departures and develop plans to
- comply with applicable statutory guidelines and                                                                              foster greater staff retention; and,
standards;                                                                                                                     - adhere to EEO principles and strive to maintain a diverse work
- set realistic and appropriate milestones.                                                                                    force.

Objective B: Address priority issues
and concerns of the Commission,
                                                                Objective B: Plan and conduct cost-
Management, and Congress.
                                                                effective work that address critical issues                    Objective B: Provide training and
Strategy:     Perform work that supports;                       and results in positive change.                                developmental opportunities to employees.
- Federal Election Commission and Congressional
priorities;                                                     Strategy:                                                      Strategy:
- Strategic Management Initiative efforts;                      - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                activities;                                                    office needs as well;
Focus OIG attention in the following areas of                   - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
emphasis:                                                       goals and priorities;                                          training are adhered to; and,
- managing change;                                              - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
- resource allocation in relation to policy objectives;         communicated; and,                                             requirements are met.
- delivery of client service;                                   - identify specific targets for OIG review that are the most
- causes of fraud and inefficiency; and,                        cost-effective
- automation and communication.



                                                                Objective C: Identify customer needs and
                                                                provide products and services to meet
Objective C: Follow-up and evaluate                             them.                                                          Objective C: Assess, recognize, and reward,
results of OIG products and services to                                                                                        when possible, performance that contributes to
assess their effectiveness in promoting                         Strategy:                                                      achieving the OIG mission.
positive change.                                                - establish new customer feed back mechanisms;
                                                                - consider and evaluate customers feedback when                Strategy:
                                                                planning and developing products and services;
Strategy:                                                       - respond to Congressional inquires and request for
                                                                                                                               - develop and articulate expectations for each employee's
- Identify, as appropriate, lessons learned to improve                                                                         performance, including contributions in meeting the mission &
                                                                briefing and testimony;
timeliness and quality; and,                                                                                                   goals of the OIG; and,
                                                                - promote open exchange of ideas and information
- conduct follow-up reviews to determine if intended                                                                           - ensure that rewards, when possible, are given in recognition of
                                                                through outreach and through use of e-mail; and,
results have been achieved.                                                                                                    exceptional employee performance.
                                                                - receive, evaluate, and respond, as appropriate, to
                                                                information received through the OIG hotline and other
                                                                sources.


Objective D: Satisfy customers,
consistent with the independent nature                          Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
of the OIG.                                                     and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                procedures.                                                    effective communication.
Strategy:
- establish professional communication and                      Strategy:                                                      Strategy:
interaction with customers to promote the open                  - ensure that IG follow-up procedures are followed and
                                                                                                                               - ensure that communication between employees is open;
exchange of ideas;                                              that management is aware of their role in the process;
                                                                                                                               - provide employees with the tools and incentives they need to
- incorporate customer feedback, as appropriate; and,           - establish common OIG standards for terminology, date
                                                                                                                               adequately perform their duties.
- be open to customer-generated solutions and                   maintenance and communications.
options.

                                                                Objective E: Establish a positive and
                                                                productive working environment.

                                                                Strategy:
                                                                - reengineer or streamline OIG procedures to achieve the
                                                                most effective use of resources; and,
                                                                - ensure that necessary technologies, evolving and
                                                                otherwise, are made available to staff as needed.



Performance Measures: Determine the
timeliness and quality of products and                          Performance Measures: An annual audit                          Performance Measures: All employees meet
services; their effectiveness in                                plan is issued; strategic plan is periodically                 the training requirements; all employees have
promoting positive change; and, reach                           reviewed; and, necessary technology is                         performance standards; and all employees
agreement with management on at least                           provided to staff to enable them to most                       meet the basic requirements for the position in
90% of recommendations within six                               efficiently perform their duties.                              which they were hired to perform.
months of the report issue date.


           __________________________________________________________________________________
           FEC/OIG – Semiannual Report to Congress                                                      Page 19                        April 1, 2007 – September 30, 2007
 OIG Contacts: :

             The table below is a breakdown of the total amount of contacts
             received by the Office of Inspector General for the past six
             months – April 1 through September 30, 2007. These contacts were
             made through various sources such as telephone calls, personal visits
             to the OIG, e-mails, faxes, and U.S. mail:



Month               Contacts         OIG Action        No Action Necessary Forwarded for
                                                                           Action
April                  202               2                     196                4
May                    157               4                     147                6
June                    94               1                      89                4
July                   147               2                     145                0
August                 128               0                     128                0
September              120               0                     120                0

TOTAL                  848               9                        825                       14




 __________________________________________________________________________________________________
 FEC/OIG - Semiannual Report to Congress      Page 20               April 1, 2007 – September 30, 2007
           list of training, meetings, & Conferences l
 The chart listed below depicts training, meetings, programs, seminars, and/or conferences
 attended by the Inspector General and/or the OIG staff for the period
 April 1, 2007 – September 30, 2007:



                Host / Sponsor                                      Topic / Subject
ECIE                                                Monthly Meetings
PCIE                                                Financial Statement Audit Network Meetings
PCIE / ECIE                                         Awards Program Database Demonstration
Federal Audit Executive Counsel (FAEC)              Annual Conference
Association of Government Accountants               56th Annual Professional Development
(AGA)                                               Conference – Creating Exceptional Value in a
                                                    Changing World
Association of Government Accountants               Second National Internal Controls & Fraud
(AGA)                                               Conference
Association of Certified Fraud Examiners            Annual Association of Certified Fraud
(ACFE)                                              Examiners Conference
Health & Human Services / OIG                       Conflict of Interest and Ethics Violation
                                                    Summit
U.S. Postal Service / OIG                           TeamMate – two day training session on how
                                                    to effectively managing the OIG’s audit and
                                                    evaluation process using TeamMate
U.S. Department of Agriculture / OIG                2007 Yellow Book Training
Department of Defense                               TeamMate – one day refresher course
OIG                                                 Monthly Staff Meetings and Monthly
                                                    Meetings with Designated Counsel
FEC                                                 All Managers’ Meeting
FEC                                                 Administrative Liaison Group Meetings
FEC / HR Division                                   Performance Management Training
FEC / SkillSoft                                     IT Security Awareness
FEC / SkillSoft                                     MicroSoft Publisher 2003
FEC / SkillSoft                                     Employment and Labor Law
FEC / SkillSoft                                     Union Awareness
FEC / SkillSoft                                     Excellence in Internal Customer Service
IGEL / SkillSoft                                    Techniques for Better Time Management
SkillPath Seminars                                  The Indispensable Assistant


 __________________________________________________________________________________________________
 FEC/OIG - Semiannual Report to Congress      Page 21               April 1, 2007 – September 30, 2007
   CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at: 	 Federal Election Commission
                                                         Office of Inspector General
                                                         999 E Street, N.W., Suite 940
                                                         Washington, D.C. 20463

        Mail is opened by OIG staff members only.




You can also fax (202-501-8134) or contact us by e-mail at: oig@fec.gov.
Website address: http://www.fec.gov/fecig/fecig.shtml

Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.

__________________________________________________________________________________________________
FEC/OIG - Semiannual Report to Congress      Page 22               April 1, 2007 – September 30, 2007
